WAIVER

RECEIVED
DEC - 4 2019
ME THE CLERK
COURT, U.S.
SUPRE

SUPREME COURT OF THE UNITED STATES
Supreme Court Case No

19-567
Macy's, Inc., et al.

Gertrude J. Pierre

(Respondent)

(Petitioner)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested
by the Court.
Please check the appropriate boxes:
Please enter my appearance as Counsel of Record for all respondents.
There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):

The Prudential Insurance Company of America

D I am a member of the Bar of the Supreme Court of the United States.
[i] I am not presently a member of the
will be filed by a Baritfie ber.

t 's Court. Should a response be requested, the response

Signature
Date.

December 2, 2019

(Type or print) Name

Amanda Sonneborn
111 Mr.

Firm

D Mrs.

❑ Miss

Seyfarth Shaw LLP

Address

233 South Wacker Drive, Suite 8000

City & State
Phone

D Ms.

Chicago, IL

(312) 460-5525

Zip
Email

60606-6448

asonneborn@seyfarth.com

A COPY OF THIS FORM MUST BE SENT TO PETITIONER'S COUNSEL OR TO PETITIONER
IF PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.

CC: Gertrude J. Pierre, pro se
Note: Ms. Pierre's writ of certiorari was untimely filed on October 31, 2019 (posted on the docket on November
4, 2019). The Second Circuit Court of Appeals entered judgment on November 19, 2018, and Ms. Pierre had 90
days thereafter to file her writ of certiorari. Therefore, a response is not warranted in addition to Ms. Pierre not
presenting an issue that is appropriate for the United States Supreme Court's review.

